HHS/OIG, Audit - "Audit of Medicare Administrative Costs Claimed by Blue
Cross Blue Shield of Arizona for the Period October 1, 2004, Through September
30, 2006," (A-09-07-00072)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare
Administrative Costs Claimed by Blue Cross Blue Shield of Arizona for the Period
October 1, 2004, Through September 30, 2006," (A-09-07-00072)
February 14, 2008
Complete
Text of Report is available in PDF format (314 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the administrative
costs that Blue Cross Blue Shield of Arizona (Arizona) claimed in its Final
Administrative Cost Proposals were allowable, allocable, and reasonable in
accordance with part 31 of the Federal Acquisition Regulation and the Medicare
contract.
Of the $13,944,069 claimed by
Arizona, $13,234,541 was allowable, allocable, and reasonable.  The remaining
$709,528 represents pension costs that we did not audit; we plan to review these
costs in a separate audit.  Consequently, this report contains no
recommendations.